CERTIFICATE OF SERVICE
No. 20A96
DANVILLE CHRISTIAN ACADEMY, INC., AND COMMONWEALTH OF KENTUCKY, ex rel.
ATTORNEY GENERAL DANIEL CAMERON,
Applicants,
v.
ANDREW BESHEAR, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF KENTUCKY,
Respondent.
I, Gordon D. Todd, do hereby certify that, on this fourth day of December,
2020, I caused a copy and an electronic copy of the Motion for Leave to File and
Brief Amicus Curiae in Support of Applicants by Samuel A. Fryer Yavneh Academy,
Montebello Christian School, and Saint Joseph Academy in the foregoing case to be
served by first class mail, postage prepaid, and by email, on the following parties:
BARRY L. DUNN
Kentucky Office of the Attorney General
700 Capital Avenue
Suite 118
Frankfort, KY 40601
barry.dunn@ky.gov
(502) 696-5653
Counsel for Applicants

AMY CUBBAGE
Office of the Governor,
Commonwealth of Kentucky
700 Capitol Avenue
Suite 106
Frankfort, KY 40601
amy.cubbage@ky.gov
(502) 564-2611
Counsel for Respondent
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

